fl

C@OCKLE

2311 Douglas Street Le ga 1 Bri efs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-431 & 19-454

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME, PETITIONER,

ve
THE COMMONWEALTH OF PENNSYLVANIA, ET AL.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET. AL., PETITIONER

ve
THE COMMONWEALTH OF PENNSYLVANIA, ET AL.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of March, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE INTERNATIONAL SOCIETY FOR KRISHNA
CONSCIOUSNESS, INC., THE COALITION FOR JEWISH VALUES, ASMA T. UDDIN, PASTOR ROBERT SOTO, AND
IMAM OSSAMA BAHLOUL AS. AMICI CURIAE SUPPORTING PETITIONER in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:

GENE C. SCHAERR
Counsel of Record

ERIK. S. JAFFE
JOSHUA J. PRINCE*
SCHAERR | JAFFE LLP
1717K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffe.com

Subscribed and sworn to before me this 9th day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

 

GENERAL MOTARY-State of Hebraska 4
A RENEE J. GOSS Keonse. . doa Oud raw &. Chk
Notary Public

Affiant 39502
 

Mark Leonard Rienzi The Becket Fund for Religious Liberty 202-349-7208
Counsel of Record 1200 New Hampshire Ave., NW.
Suite 700
Washington, DC 20036

mrienzi@becketlaw.org

Counsel for Petitioner The Little Sisters of the Poor Saints Peter and Paul Home

Michael J. Fischer Pennsylvania Office of Attorney General 215-560-2171
Counsel of Record 1600 Arch St.
Suite 300
Philadelphia, PA 19103

mfischer@attorneygeneral.gov

Counsel for Respondents Commonwealth of Pennsylvania, et al.

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Counsel for Federal Respondents and Petitioners Donald J. Trump, et al.

 
